<html>
<title> - [H.A.S.C. No. 112-40]SUSTAINING THE FORCE: CHALLENGES TO READINESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 112-40]
 
             SUSTAINING THE FORCE: CHALLENGES TO READINESS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 7, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
65-811                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Ryan Crumpler, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, April 7, 2011, Sustaining the Force: Challenges to 
  Readiness......................................................     1

Appendix:

Thursday, April 7, 2011..........................................    33
                              ----------                              

                        THURSDAY, APRIL 7, 2011
             SUSTAINING THE FORCE: CHALLENGES TO READINESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Collyar, BG Lynn A., USA, Director, Logistics Operations, Defense 
  Logistics Agency...............................................     8
Johnson, Maj. Gen. Michelle, USAF, Director, Strategy, Policy, 
  Programs and Logistics, J5/4, U.S. Transportation Command......     6
Panter, Lt. Gen. Frank A., Jr., USMC, Deputy Commandant, 
  Installations and Logistics Headquarters, U.S. Marine Corps....     5
Stevenson, LTG Mitchell H., USA, Deputy Chief of Staff, 
  Logistics, G4, U.S. Army.......................................     4

                                APPENDIX

Prepared Statements:

    Collyar, BG Lynn A...........................................    70
    Forbes, Hon. J. Randy........................................    37
    Johnson, Maj. Gen. Michelle..................................    63
    Panter, Lt. Gen. Frank A., Jr................................    51
    Stevenson, LTG Mitchell H....................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    85
    Mr. Forbes...................................................    85

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    89
             SUSTAINING THE FORCE: CHALLENGES TO READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, April 7, 2011.
    The subcommittee met, pursuant to call, at 10:30 a.m. in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. I want to welcome everyone to the 
subcommittee's hearing on ``Sustaining the Force: Challenges to 
Readiness.'' Today we have the opportunity to discuss not only 
the current state of our logistical and maintenance readiness, 
but to also look at how we are posturing the force to the 
future.
    Joining us today are four exceptional witnesses 
representing the Army, Marine Corps, U.S. Transportation 
Command and the Defense Logistics Agency. They are Lieutenant 
General Mitch H. Stevenson, the Deputy Chief of Staff, 
Logistics, U.S. Army; Lieutenant General Frank A. Panter, Jr., 
Deputy Commandant, Installations and Logistics, U.S. Marine 
Corps; Major General Michelle D. Johnson, U.S. Air Force, 
Director of Strategy, Policy, Programs and Logistics, U.S. 
Transportation Command; and Brigadier General Lynn A. Collyar, 
USA, Director of Logistics Operations, Defense Logistics 
Agency.
    These four distinguished officers are responsible for 
transporting, sustaining and supporting our forces, both at 
home and abroad. They are charged not only with ensuring our 
men and women have what they need when they need it, but are 
also responsible for ensuring we are postured to respond 
effectively to future real-world contingencies like we have 
seen recently in Haiti and Japan.
    We are truly honored to have you join us today, and we are 
extremely grateful for all you do to keep this Nation safe. 
Thank you all for your service.
    Our subcommittee's hearings over the last couple of months 
have highlighted the many potential global threats and 
challenges our military faces. There is no doubt that our 
military is under significant strain, but they are performing 
marvelously despite the many challenges they face.
    However, the work of this subcommittee is to not only 
ensure our force can continue to excel in Iraq and Afghanistan, 
but that it also is postured to respond to a myriad of 
potential challenges around the world, both in the near term 
and in the long term.
    Today the Department of Defense has more than 450,000 
personnel abroad in support of our national interest. In 
CENTCOM [U.S. Central Command] alone, the U.S. has more than 
150,000 brave men and women engaged in ongoing operations.
    These complex operations are sure to present significant 
logistical and maintenance challenges well beyond the 
President's stated goal for redeployment of combat forces from 
the region.
    I hope that this hearing will allow members to learn more 
about how we are meeting these current challenges, while at the 
same time posturing ourselves for significant challenges we are 
certain to face in the future.
    I look forward to hearing from our witnesses.
    And now I would like to recognize the gentlelady from Guam 
for any remarks she may have.
    Ms. Bordallo.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 37.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. To all our 
witnesses today, I look forward to your testimonies.
    Today we are a Nation at war, confronting threats on every 
continent with some 3.2 million soldiers, sailors, airmen, 
marines and civilian personnel deployed or stationed at 5,000 
different locations worldwide.
    Supporting this robust and geographically dispersed force 
requires the significant logistics and maintenance capabilities 
embodied in the organizations represented by our witnesses here 
today.
    As we continue to draw down forces in Iraq, support troops 
on the ground in Afghanistan, support humanitarian missions in 
Japan and support efforts to attain democracy in Libya, these 
activities will test the ability of our military logistics 
enterprise to get this done right and in a timely manner.
    Given the austerity of today's national budget, we must 
conduct these logistics operations in the most cost-effective 
manner that is possible. All these requirements must be 
fulfilled simultaneously with the best possible support of our 
warfighters, but also with an eye on the value to the taxpayer.
    I believe that we have the ability to accomplish these 
daunting tasks, but it is going to take a tremendous 
coordinated effort with military and civilian leaders thinking 
outside the box to get this done right. I believe it is our 
role in Congress to make sure that you have the tools you need 
to accomplish all these requirements and fulfill your missions 
successfully.
    I also believe that our witnesses will have to look closely 
at their own internal processes to make alterations that will 
allow for successful completion of these missions. Internal 
efficiencies are the quickest and sometimes the best way to 
accomplish the multitude of tasks that are set before you.
    In particular I look forward to hearing more from the 
witnesses on the logistical challenges within Afghanistan and 
Pakistan and options regarding use of the Northern Distribution 
Network to move personnel and materiel in support of our troops 
in Afghanistan.
    Now some might say that Guam is isolated, but I have been 
to Afghanistan a number of times, and its geography, I believe, 
makes it a far more isolated location. I understand that there 
are significant interagency and technical challenges associated 
with supply chains into and out of Afghanistan.
    I hope our witnesses can discuss how this system can be 
strengthened before the inevitable drawdown of forces in 
Afghanistan. Again, what can Congress do to facilitate this 
process and give you all of the tools that you need to succeed?
    Additionally, I hope that our witnesses from the Army and 
Marine Corps can discuss their management of workflow at 
military depots across the country as the OPTEMPO [Operations 
Tempo] of the wars slows.
    A recent congressionally directed report from LMI [the 
Logistics Management Institute], the government consulting on 
future depot maintenance requirements, highlights some 
transformational changes that will need to occur to keep these 
critical capabilities viable as more modern weapon systems are 
integrated into the force.
    I welcome comments from our witnesses on this report and 
what steps are currently being taken to transform the depot 
business model. If you believe that adjustments are needed in 
the statutory framework underlying depot operations, we would 
also be very interested in getting your input in that regard.
    So again I thank you, Mr. Chair, for this opportunity, and 
I look forward to the testimonies.
    Mr. Forbes. Thank you for those remarks, Madeleine.
    As we discussed prior to the hearing I ask unanimous 
consent that we dispense with the 5-minute rule for this 
hearing and depart from regular order so that members may ask 
questions during the course of the discussion. I think this 
will provide a round table-type forum and will enhance the 
dialogue on this very important issue.
    Without objection, so ordered.
    We begin today once again thanking all of you for your 
service to our country and for taking time to come here. We 
have your written remarks. They are going to be made a part of 
the record. And oftentimes in written remarks we use those to 
kind of validate what we are doing, and that is what we should 
be doing.
    We want to give you each, though, about 5 minutes. You can 
take less, or you can take a little bit more, but to tell us 
from your own viewpoint what your biggest concerns are with 
readiness. What do we need to be looking at?
    All of us on here appreciate the logistical side of this. 
We understand that in any fight, you know, part of the effort 
that we have is how long we can sustain that fight, and that 
comes down to something that is often not very sexy.
    People don't like to really read reports about it and look 
at it, but it is the logistics. It is how we maintain our 
fleet, maintain our planes, maintain our equipment, get 
supplies there. The logistical part of it determines whether we 
win or lose. And you guys are on the forefront of that.
    You don't hear it enough, so we want to make sure 
corporately as a subcommittee we are telling you all thank you 
for what you have done in your careers and what you continue to 
do.
    General Stevenson, if it is okay, we will start with you, 
since you just happened to pick the slot on that side. And if 
you would, I would like to recognize you for 5 minutes or how 
long you feel appropriate.

 STATEMENT OF LTG MITCHELL H. STEVENSON, USA, DEPUTY CHIEF OF 
                STAFF, LOGISTICS, G4, U.S. ARMY

    General Stevenson. Thank you, Chairman Forbes and Ranking 
Member Bordallo.
    I won't take the full 5 minutes, but I did want to hit a 
few high points from what is in my opening remarks. The reason 
why we are here today is to answer the question, ``Are we 
ready?''
    And I think in just one sentence I would tell you that in 
my view the Army is more ready and better prepared than we have 
been in a long, long time, certainly in my 37 years in the 
Army.
    And we will get even better in the coming years for a 
number of reasons, and I would be happy to get into that. We 
are on track to complete our drawdown from Iraq by the end of 
the year, and we are also, I think, doing reasonably well in 
sustaining our forces in Afghanistan, despite the challenges 
that Ms. Bordallo mentioned.
    Here at home we are working very hard on improving 
ammunition readiness. I would tell you our ammunition readiness 
is probably the best shape it has been in since right after the 
Cold War. We are reconstituting our Army prepositioned stocks, 
probably two-thirds of the way through with that.
    And we are, ma'am, as you pointed out that you had asked us 
to be, we are working hard to be better stewards of our 
taxpayer dollars. And a good example of that is the ongoing 
property accountability campaign we have ongoing in the Army, 
which will also, of course, contribute to readiness.
    Just a couple of final thoughts. You have probably heard 
testimony from various members of the Army and other Services 
over this past several years that said that, you know, we are 
going to need dollars, appropriations to reset for 2 to 3 years 
after the end of combat operations, and that is still true 
today.
    And I can, if there is time and you are interested I could 
walk you through why it does take that long. And it does go to 
why we have a lesser requirement for reset dollars in fiscal 
2012 than we had in perhaps in previous years.
    And lastly, you asked about our challenges. The things that 
probably are the biggest challenges on my scope right now are 
supporting dispersed unit operations in Afghanistan. It seems 
like every day we uncover a new challenge that we have got to 
work with there. That is certainly a challenge for us.
    Redistributing our Army property, you know, a lot of the 
reasons why we don't look as ready as I believe we are is 
because we have got maldistributed property and a lot of good 
reasons for why that is, and we are on a path to get better.
    And lastly, to do something about energy consumption, we 
have got to improve and get better at that, although if you 
were to compare the Services, Army energy consumption isn't as 
high as others. We know that we still can do better, and we 
want to do that.
    Thank you for your support. And you have made us ready 
through the terrific support we have gotten over the past 
years. And I look forward to your questions.
    [The prepared statement of General Stevenson can be found 
in the Appendix on page 39.]
    Mr. Forbes. Thanks, General.
    General Panter.

   STATEMENT OF LT. GEN. FRANK A. PANTER, JR., USMC, DEPUTY 
  COMMANDANT, INSTALLATIONS AND LOGISTICS HEADQUARTERS, U.S. 
                          MARINE CORPS

    General Panter. Chairman Forbes, Representative Bordallo, 
and other distinguished members, thank you for the opportunity 
this morning to talk about the state of equipment and material 
readiness in the United States Marine Corps.
    On behalf of all the marines, families and our civilian 
marines, thank you for the unwavering support you have provided 
for the last 9 to 10 years as our troops have been engaged in 
combat.
    We have a high readiness rating forward in Afghanistan. I 
think you know that. But that has come at a cost. Our equipment 
aboard our home stations has been heavily taxed, and after this 
almost a decade of combat operations our average readiness 
ratings at home stations hover around 65 percent. We have 
accepted that risk so we could properly support the forces 
forward.
    We continue to globally source equipment for Afghanistan 
throughout the Marine Corps, and if there is additional 
contingency that appears on the horizon, that is the approach 
we take. We globally source it in the Marine Corps so we can 
respond appropriately.
    We do have some challenges I would like to share with you 
this morning. One of them, much like General Stevenson 
mentioned, we need your support when the time comes for reset 
from Afghanistan. You may well know that we got out of Iraq 
last year. We are about to conclude the reset actions for that 
equipment we pulled out of Iraq.
    We transferred or we swung over about 50 percent of the 
table of equipment from Iraq to Afghanistan, so that equipment 
set is in Afghanistan as we speak. And by that action, it 
delayed our original reset plan, but we are adjusting to that. 
We are consistently and constantly readjusting our reset plan.
    Another issue, as I just mentioned, is the readiness rating 
of our home station units hovers around 65 percent. We accepted 
that risk early on.
    Another area is the reconstitution effort beyond reset that 
we would ask your help for. We have learned through Iraq and 
Afghanistan that we--before we went into the war we were--we 
now know we have legacy tables of equipment. The nature of 
modern combat requires that we enhance these tables of 
equipment.
    For example, comm equipment, communication equipments, we 
have learned that we require almost seven-fold of communication 
equipment from what we have done in Iraq and Afghanistan as 
compared to our old table of equipment.
    Lastly, one of our strategic programs, our Maritime 
Prepositioned Program, our MPSRON [Maritime Prepositioning Ship 
Squadron] commandant has instructed us, instructed me, to 
protect the readiness rating as much as we can with that.
    Originally, we did use some of the equipment off of MPSRON 
for Iraq. We have since replaced that. In general, our 
attainment rates for MPSRON are greater than 90 percent. It is 
in the 95 percent area.
    There is equipment in our MPF program, Maritime Preposition 
Force, that it does require to be modernized. And this is part 
of that reconstitution effort. We do run the equipment through 
our regular maintenance cycles to update as we can, as the 
equipment is available, but we would ask for your continued 
support to update that equipment.
    In closing, and I mean this sincerely on behalf of all our 
marines, their families, thank you for your support. Our 
marines are doing--much like other service members--some great 
things out there in defense of this Nation. We will ensure that 
we are prepared to meet any additional assigned missions for 
future contingencies, and with your help we can.
    Thank you.
    [The prepared statement of General Panter can be found in 
the Appendix on page 51.]
    Mr. Forbes. General, thank you.
    General Johnson.

   STATEMENT OF MAJ. GEN. MICHELLE JOHNSON, USAF, DIRECTOR, 
     STRATEGY, POLICY, PROGRAMS AND LOGISTICS, J5/4, U.S. 
                     TRANSPORTATION COMMAND

    General Johnson. Chairman and Ranking Member Bordallo, 
thank you so much for your time yesterday and for your time 
today.
    It is an honor to be able to address this committee and to 
be able to represent the U.S. Transportation Command at the 
side of the leaders of logistics in the Army and the Marine 
Corps and at the side of our partner Defense Logistics Agency, 
because Transportation Command looks globally. We link air, 
sea, land transportation capabilities with the supply 
capabilities that DLA [Defense Logistics Agency] provides, so 
that we can provide a worldwide network to support our forces 
in all the global areas.
    As you mentioned, ma'am, earlier, we are in a far-flung 
situation now. As the national military strategy says, more and 
more we will be asked to act in a complex, far-flung 
environment and to be able to operate indefinitely at the end 
of very long lines of operation and supply.
    Afghanistan represents probably the longest possible line 
of supply you could achieve at a land-locked country with no 
ports. Guam has ports. At least it has access that way. So, 
again, that is remote there, but surrounded by the highest 
mountains in the world and with no infrastructure.
    And so to address, if I may, just briefly, a question you 
actually put in your opening statement, how can we continue to 
support such far-flung places and continue also to anticipate 
other contingencies across the globe, meanwhile focusing on 
Afghanistan?
    And that is the stock and trade of TRANSCOM [U.S. 
Transportation Command]. So we try to look for options every 
day.
    Pakistan presents challenges in its approaches to 
Afghanistan, so we have found access through the north, through 
countries that we didn't normally or used to have relationships 
with in the past, through Central Asia. Russia has been a very 
supportive partner. That route begins in the Baltics, who have 
been partners with us for a long time.
    We have approaches through Central Asia and are therefore 
able to supply over 100,000 troops in Afghanistan. So distance 
has a tyranny to it. The volume, the sheer volume to support 
100,000 forces, is a burden on the forces who have to receive 
that, to receive all that good and try to put it into place in 
the forward operating bases.
    So we work together with Central Command and with the 
Services and, frankly, with European Command to support that 
theater, but also to be ready to swing our forces to where they 
are needed elsewhere--for instance, in Japan--to be able to 
pivot forces over, whether they are commercial forces--and that 
is who supported most immediately, our commercial air carriers, 
to be able to help us with the departures of family members 
from Japan--and to be ready in case we needed to do more than 
evacuation. At the direction of the PACOM [U.S. Pacific 
Command] commander, we could so do with surface resources 
perhaps, whether commercial or organic.
    Our Active Duty Forces have a certain amount of resource in 
aircraft and ships, but if we need to mobilize the Reserves we 
can also mobilize the Reserves. We have many options along 
those lines, and we try to preserve those options, and then 
when activity arises in North Africa, to build a swing as well 
and to support European Command and AFRICOM [U.S. Africa 
Command] in those ways.
    And so it is a constant dynamic interplay between the joint 
staff, TRANSCOM, DLA, the Services and the combatant commands 
to understand the priorities of our Nation and to be able to 
respond appropriately and as creatively as we possibly can.
    And in so doing, we have really become an information 
command, if you will, to be able to convey openly what we need 
to do with commercial partners, interagency partners, 
international partners. And in so doing we do those on 
nonsecure networks most of the time. And so in many ways we are 
very vulnerable on the cyber security front.
    And so, if I would say, there are challenges, that we 
face--challenges of distance, challenges of relationships 
internationally--and we will appreciate Congress' understanding 
of our new relationships with countries with whom we haven't 
dealt as much before.
    And also on the cyber front, I know this committee has been 
very interested in defense industrial base. And one aspect of 
that is the membership of defense industrial base and the cyber 
activities of Department of Defense to be able to share 
challenges and to understand that the weak point in any one of 
our partners is therefore the weak part of the system. So if a 
``mal-actor'' [malicious actor] wanted to get into the system 
through a cleared defense contractor, it could affect the 
entire program. So the more partnerships we have with the 
commercial sector on all fronts, the better.
    So again I look forward to the discussion. I value and 
treasure the opportunity to speak to you today and the 
opportunity to represent the over 150,000 members of the United 
States Transportation Command from all the Services, as well as 
commercial partners and the Merchant Marines.
    Thank you for very kindly.
    [The prepared statement of General Johnson can be found in 
the Appendix on page 63.]
    Mr. Forbes. Thank you, General.
    General Collyar.

   STATEMENT OF BG LYNN A. COLLYAR, USA, DIRECTOR, LOGISTICS 
              OPERATIONS, DEFENSE LOGISTICS AGENCY

    General Collyar. Chairman Forbes, Ms. Bordallo, it is my 
privilege also to speak to you today. I am representing the 
27,000 men and women of the Defense Logistics Agency.
    As the director of logistics operations, I would like to 
tell you we are primarily a civilian organization. About 25,000 
of those personnel are civilians, just over 500 Active Duty 
military and about 750 Reserve military, and as such relatively 
small compared to our service counterparts and again our 
transportation, USTRANSCOM, partner.
    We are a critical part of the supply chain, though, as we 
are represented in both overseas areas and throughout CONUS 
[continental United States], supporting the industrial base. We 
have personnel in 48 of the 50 states and about 28 countries 
overseas.
    On a daily basis we supply about 55,000 requisitions in 
support of the Services and execute over 10,000 different 
contracts, many through automated means, but over 10,000 
contracts per day.
    And we do that to support approximately 1,900 weapon 
systems whether it be aviation, land or maritime. And we supply 
about 85 percent of those parts along with approximately almost 
100 percent of the food, fuel and other commodities that the 
Services need.
    We are funded through the working capital fund, which means 
that the Services pay for our support. And, therefore, it is 
very, very important that we optimize both the effectiveness of 
what we do, but balance that with efficiency. And I think we 
have continually tried to execute that overseas.
    We now operate 26 depots around the world. We have 
increased that number over the last few years as we have added 
depots in Kuwait supporting the Iraq campaign, in Kandahar, 
Afghanistan, supporting there. That allows us to move things, 
the slow, low-dollar items by surface and take them out of the 
air supply chain.
    In my written statement I provided a relatively 
comprehensive look, but we provide primarily Class 1 and Class 
3 food and fuel to the forces through prime vendors. Along with 
our ability to stretch those, we have worldwide contracts with 
an extensive vendor base in most all commodities that allows us 
to support not only the present theater, but any of the 
contingency operations that we are also supporting.
    You have heard the challenges, and you have seen the 
challenges in Afghanistan, the land-locked country, 
infrastructure being one of the key things that we have had 
overcome.
    And, again, working with all of our partners, we have 
really balanced it or tried to balance what we provide through 
the PAK GLOC [Pakistani ground lines of communication] with the 
NDN [Northern Distribution Network] and with other multi-modal 
means of providing as much of the transportation by ship and 
then flying in the last leg of that, minimizing that air 
requirement as much as we can, along with setting up those 
depots which have allowed us to support directly from the AOR 
[Area of Responsibility] instead of having items come from the 
United States.
    I would like to just close by saying although we only have 
27,000 people, we presently have a continued increase in 
mission in Iraq specifically with disposition in our 
disposition yards as the drawdown takes place.
    With some of our dwell issues with the military personnel 
and the limited military, we have had over 800 volunteers 
throughout the agency to deploy to the AOR within just the last 
3 weeks. So it speaks volumes for the morale and the desire to 
support all of our personnel along with that of our Services.
    And we have the capability to support not only a change of 
forces in Iraq as we continue to draw down, but also we will 
support the transition to the Department of State through 
several commodities.
    I look forward to your questions. Thank you.
    [The prepared statement of General Collyar can be found in 
the Appendix on page 70.]
    Mr. Forbes. General, thank you.
    I want to begin by focusing on a word that General Johnson 
used, which is partnership. And one of the things that Ms. 
Bordallo and I were just talking about is how much we 
appreciate--we talked about your service, but also your 
willingness to come in here and view this as a partnership.
    Each of you did what we asked you to do. You gave us a 
written statement, but then you didn't come in here with 
prepared, with canned remarks. You talked to us. And that is 
what we want this to be today is a dialogue to get that 
information out. We were talking, as you were talking, about 
how encouraging that is that we can have that dialogue and have 
that partnership.
    But also this is, as I have told each of you privately, 
probably one of the most bipartisan committees or 
subcommittees, I think, in Congress. We like each other, work 
very well together, so got kind of two partnerships going here, 
Republicans and Democrats, and we have the Department of 
Defense and we have Congress. And I think if we do that, there 
is no end to what we can really accomplish. So we thank you for 
that.
    And the other thing I want to tell you just logistically, 
as we talked about earlier, we do something a little bit 
different. So if one of our members are asking a question and 
another member has kind of a follow-up on that, we will let 
them go ahead and ask that follow-up. And the ranking member 
has given me some discretion in doing that. We won't allow it 
to run on, but we just allow that so we can have a fruitful 
discussion.
    I am going to hold my questions until the end, so we can 
get all of our members' questions in. And I would like to now 
recognize our ranking member, the gentlelady from Guam, for any 
questions she may have.
    Ms. Bordallo. Thank you. Thank you very much.
    And I want to echo the remarks of the chairman. I felt when 
you speak to us just from your heart and not from a written 
statement, I think it is much more meaningful.
    I think you covered some of this, but I would like to ask 
the question for any of our witnesses. During the March 2010 
hearing before the House Appropriations Committee Defense 
Subcommittee, GAO [Government Accountability Office] identified 
several challenges, and I think you mentioned these, in 
distributing supplies and equipment to U.S. forces in 
Afghanistan.
    Now, these challenges included difficulties with 
transporting cargo through neighboring countries, limited 
airfield infrastructure within Afghanistan, lack of full 
visibility over supply and equipment movements into and around 
Afghanistan, lack of coordination, as well as competing 
logistics priorities in a coalition environment, uncertain 
requirements and low transportation priority for contractors.
    Now, given all these challenges, what does it look like 
today? And is there any one of these that stand out?
    What steps have been taken to mitigate some of these 
challenges? And what metrics are being used to gauge the 
effectiveness of the supply chain and the distribution 
processes in delivering required material to deployed forces in 
Afghanistan?
    I guess whichever want to be would like to answer that?
    Admiral.
    General Stevenson. There are quite a few challenges, ma'am, 
in your statement there. Let me just hit a few high points and 
then I would ask the others, particularly General Johnson, who 
is, in large measure, the one helping us overcome these 
challenges.
    We know that it is difficult to get into and out of 
Afghanistan. So one of the things that we have done in the Army 
is we have told units, when you get in there and it is time for 
you to be replaced leave your equipment there. The new unit 
will fall in on top of it. You go home to the United States, 
and we will get you replacement equipment.
    Sounds real easy, rolls right off the tongue. It is a 
little tough to do. But it does keep equipment off the roads, 
and therefore not subject to pilferage and not subject to the 
limited road networks and air networks that we have there. So 
that is one thing we have done to mitigate.
    Another is to just limit the amount of things that units 
take over there with them. You know, when you deploy to a place 
like that and you are going to fight, the tendency is to take 
everything you could possibly think you might need in the next 
year. And it ends up being hundreds of containers.
    And we have had to step in with units and say, ``Look, you 
know, have some confidence in the supply chain. When you 
develop a need there, we will get it to you, but don't try to 
deploy with, you know, a thousand containers in a brigade, for 
example.''
    And so our forces commanders put out some very deliberate 
guidance about that, and that is helping mitigate, because if 
you reduce the amount of stuff that has got to flow through the 
soda straw, then it flows easier.
    We have added in-transit visibility. Starting this summer, 
we are going to add satellite tagging to that equipment which 
must transit on the ground. We don't put anything on the ground 
that we care about. No ammunition goes on the ground. No 
sensitive material goes on the ground. That all flies in.
    But that which has to go on the ground, we are going to put 
satellite tags on it so that we can have real-time visibility 
as to where this cargo is. If it stops at a place it shouldn't 
stop, we will know immediately, or nearly immediately, and then 
can take appropriate action.
    And I could keep going but I would rather let General 
Johnson talk a little bit about what TRANSCOM is doing.
    Ms. Bordallo. And what you mentioned then has been quite 
successful?
    General Stevenson. I would say reasonably successful. I 
don't want to overstate how successful we are. We have been 
challenged. We have had pilferage.
    Ms. Bordallo. That is right.
    General Stevenson. But reasonably successful, I think.
    Ms. Bordallo. Anyone else like to comment?
    General Johnson. Yes, ma'am, if I could. I appreciate 
General Stevenson's noting the actions the Army has taken 
itself to provide discipline in the process.
    One of the things that we can benefit from being a very 
wealthy country is to have a logistical tail, but sometimes it 
can a burden in the sheer volume, and so I really respect the 
way the Army is managing their massive force. It is a lot of 
need for 100,000 people in-theater.
    So as he pointed out, we fly in sensitive lethal equipment 
as we can, and so, that is able to keep things off the road and 
keep it safe. We also airdrop in an increasingly amount. Last 
year we dropped over 60 million tons of equipment via airdrop, 
often to very remote forward operating bases.
    And we are trying to be creative so that we don't have to 
have very expensive equipment that we need to recover later. In 
fact, we take low-cost, low-altitude chutes, parachutes that 
are maybe reused from some other purpose and drop it in a 
really low level at very low speed so that troops don't have to 
subject themselves to harm in a hazardous environment of a 
forward operating base, and they can still get the equipment 
that they need or the medicine or the food or the water that 
they need.
    This year we anticipate 100 million tons of equipment 
airdropped. Again, it is more secure, it is more accurate, it 
is more safe for all concerned. So we have taken that effort.
    The pilferage General Stevenson alludes to exists, you 
know, and probably, in all fairness, any of us could look at 
our own home states or any place with human beings involved. 
There might be some, but obviously we don't want to lose 
anything on our lines of communication to theater.
    One percent is what we are showing. We think that is a 
fairly accurate figure but 1 percent of 8,000 to 9,000 
containers at any given day is dozens, and if it is yours you 
don't want to lose it. And by containers we mean the back of a 
semi-trailer truck size of container that we are talking.
    On the Northern Distribution Net, we have put more and more 
of our volume as we can to try to reduce the risk in Pakistan. 
So we have upwards of 10,000 to 12,000 containers en route from 
the Northern Distribution Net at any given day, and it has been 
a very secure route. There have been really nil pilferage 
issues, and the attacks have been nonexistent as well.
    And, well, we watch that with great concern. And our 
intelligence community actually has turned their eyes to these 
routes as well, because logistics do matter. Logistics are a 
great asymmetric advantage for our country, and we know that.
    So, intermodally, I really appreciate my colleague, General 
Collyar, mentioned intermodal options. What does that mean?
    For instance, MRAP [Mine Resistant Ambush Protected 
vehicle], all-terrain vehicles--you may be familiar with M-ATVs 
[MRAP All-Terrain Vehicles]--we needed to deliver upwards of 
7,000 to 8,000 of them in a short amount of time over the last 
year.
    And to fly them in from the United States after Oshkosh 
builds them and delivers them to Charleston, South Carolina, 
and to fly them four or five at a time on an airplane is 
prohibitively expensive.
    But actually to load maybe 300 of them on a ship--and some 
of these large ships can hold 200 to 400 C-17 [Boeing 
Globemaster III tactical airlifter] loads--and then send them 
to a port, maybe in the vicinity, perhaps Bahrain or Oman, and 
then shuttle the airplanes in a shorter distance--less fuel is 
required, they can carry more vehicles--we are saving $110 
million per thousand M-ATVs delivered.
    So, again, we are trying to use good business practices, be 
good stewards of tax dollars and support the warfighter 
foremost. And so we are nearly finished. We are nearly complete 
this month. We will have delivered over 7,000 of those 
vehicles. And there are other vehicles in the works and heavy 
trailers that we are delivering that way.
    We have used this method elsewhere. And Rota, Spain, is an 
important place. And it illustrates how important one COCOM 
[Combatant Command] can be to another, that bases in Europe are 
actually very important for Central Command from the 
transportation point of view.
    If we send shiploads of helicopters to Rota, Spain, and 
then shuttle on heavy aircraft into Afghanistan, it is 
efficient, it is effective. Most importantly, it supports the 
warfighter, but also saves tax dollars as we go.
    So those are the kinds of creative ways we are trying to 
work around the challenges that we have.
    And I will finish up with the in-transit visibility work. 
You know, in business, obviously, there is, you know, tagging. 
Some of our foremost companies take advantage of these 
operations. But it is just not the physical device that goes on 
the container that senses the location of the device. There is 
a process that is required for this volume of material coming.
    And so to the credit of the forces on the ground in Central 
Command and my counterparts in the logistics community in the 
Central Command, they have taken into account how best to track 
the inputs from all those data. There is no shortage of data, 
but how to manage that, make it useful and have the soldiers 
and the marines and the airmen and the sailors on the ground in 
Afghanistan be able to track the things they are bringing in.
    And they have also started maintaining cargo yards, so that 
trucks aren't lined up on the roads and vulnerable to attack. 
And our commercial partners have helped orchestrate that as 
well. And DLA is helping us work in those lines, too.
    So this is very much a team effort to know what we have, to 
track what we have and to have only what the folks on the 
ground really need.
    Ms. Bordallo. Thank you, General.
    I have a quick follow up to General Stevenson. What about 
the second order effect of theater-provided equipment not being 
returned to the United States for training or equipment that 
may have been pulled out of the Reserve units? How is the Army 
meeting this challenge?
    General Stevenson. Yes, ma'am, that is a very good point. 
And that is sort of what I alluded to in my opening remarks 
about maldistributed equipment.
    Equipment that we told to stay there in Afghanistan becomes 
what we refer to as theater-provided equipment. It is not part 
of any unit table of organization and equipment, like General 
Panter referred to. And so somebody else is doing without 
because that equipment is sitting there. So that is an impact.
    Another impact is because we have decided to leave that 
material there and let units rotate on top of it, it has 
interrupted what we had planned to do in our depots. And so 
there has been a workload impact.
    And then, lastly, if you leave unit in country for multiple 
rotations, there is a point at which if you have got to take it 
down and apply some heavy-duty maintenance to it--you know, 
when you have got a unit going in, they only stay a year, they 
come out, it is generally not a problem. We will get it reset 
and ready for the next operation.
    But when that equipment stays for multiple rotations, there 
is a point at which you have just got to say time out. We got 
to put that equipment into some sort of maintenance facility. 
And we are building one in Kandahar now to help us do that.
    Ms. Bordallo. General, do you ever sell equipment to the 
Afghan military, I mean, you know, where they are training them 
and so forth? I mean, is there something like that?
    General Stevenson. We do. There are a number of ways by 
which we transfer equipment to the Afghans. One is what is 
called sale from stock. There isn't much of that going on.
    The Congress authorized us to provide equipment that was 
excess to our needs to them, I think it was in fiscal year 2010 
in the authorization bill. And so as a result of that, we have 
been transferring some equipment to them.
    And then, lastly, there is foreign military sales. This 
actually ends up being grant money provided by the United 
States, appropriated by the Congress, that we have people--Army 
and other service people in-country--helping to build their 
military and decide what they need. You know, as you know, we 
are building the Afghan army up into several hundred thousand 
Afghan soldiers.
    Ms. Bordallo. That is right.
    General Stevenson. They all need rifles. They all need 
radios. And they all need transport. And all that stuff is 
being bought as part of that foreign military sales effort.
    Ms. Bordallo. Mr. Chairman, on my last trip to Afghanistan 
with a CODEL [Congressional Delegation], we all received desert 
boots as a gift, made in Afghanistan. So I understand they are 
now making their own uniforms. Is that a true comment?
    General Stevenson. Ma'am, it wouldn't surprise me, and it 
would be a good thing if they are.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The next question will come from our gentleman 
from New Jersey. But before he does, the gentleman from New 
York had a quick follow-up question to Ms. Bordallo's 
questions.
    Mr. Gibson.
    Mr. Gibson. I thank the chairman and the ranking member.
    And I thank the panelists.
    With regard to movement of logistics in-theater, my 
question has to do with are we confident we have learned from 
the lessons from Iraq as far as rearward movement? The 
President has laid down the marker to begin the drawdown this 
year and to complete combat operations by 2014.
    And please give me some assurances that--because it was 
Herculean work that was done to move that--how are we applying 
those lessons and how that might impact reset operations at the 
completion.
    General Panter. If I may, since we are out of Iraq, and we 
had some pretty good lessons learned coming out of Iraq and we 
thought we had a fairly successful drawdown plan, some of this 
is basic leadership.
    For example, the commander we had on the ground at the time 
told his subordinate commanders they can't go home until they 
account for all of their equipment. That got everybody's 
attention to the degree that we had a 110 percent turn-in as we 
were getting out of Iraq.
    [Laughter.]
    Now, that says something about our legacy accounting 
systems, which is a different issue that we are working in 
trying to solve, and one of those solutions will be MCCS 
[Marine Corps Community Services] Marine Corps, our future 
logistical information backbone.
    So the commander told everyone of the equipment 
accountability.
    The second thing was early decisions. Now, we took some 
risk early on, but they proved to be right. Without knowing the 
political dimensions or the decisions that might be made 
related to a timeline for a drawdown, the commanders made the 
decision to pull 10 percent of the equipment off your forward 
operating bases to try and get ahead of the game. And that 
proved to be successful in that we had a sense that we had 
maybe too much equipment forward.
    So, again, the leadership came in play there. I have to 
admit though that we were lucky in that we were not having to 
compete with our Army friends as we were coming out of Iraq. 
Thus, the competition for the LOCs [Lines of Communication] and 
the strategic airflow diminished. The transportation that 
TRANSCOM provided to get us out of country was tremendous.
    Those lessons learned like that we immediately captured 
after our withdrawal from Iraq. And we have already started 
planning for when the time comes for Afghanistan not to repeat 
any bad practices, but to use some of the good practices that 
we learned from that.
    Mr. Forbes. Thank you, General.
    The gentleman from New Jersey, Mr. Runyan, is recognized 
for 5 minutes.
    General Stevenson. Sir, I just want to do a quick follow-
up.
    Mr. Forbes. Sorry, General, go ahead. I apologize.
    General Stevenson. You heard General Johnson refer to the 
Northern Distribution Network. It is going to be key that that 
Northern Distribution Network allows movement of what is 
referred to as lethal cargo.
    You know, today, we can only move non-lethal cargo on that 
network. Fully 60 percent of our materiel flows in through the 
Northern Distribution Network today, but it is only non-lethal 
stuff. It is food. It is fuel. It is water. It is construction 
materials.
    In order to do a withdrawal, an orderly withdrawal out of 
Afghanistan, we are going to need to--and TRANSCOM is working 
on it; perhaps General Johnson can talk about it--we are going 
to need to be able to go out through the north as well from the 
south.
    General Johnson. Sir, if I may?
    Mr. Forbes. Yes.
    General Johnson. Absolutely to the point, one of the points 
of fragility in the Northern Distribution Network is that each 
of our transit agreements is bilateral. It is individual per 
country in this chain and series of each country. And it is one 
way right now.
    And for many reasons, these countries have long memories of 
what happened in Afghanistan, you know, a couple of decades ago 
and are very nervous about the security on their southern 
borders. So we do not currently have permission from all the 
countries to be able to come out, whether just to rotate forces 
or to eventually move out.
    And even for--we are working with our NATO [North Atlantic 
Treaty Organization] partners as well because some of their 
units are obviously based on Europe. They would like to be able 
to rotate that way.
    So these are the kinds of agreements that the State 
Department is helping us with in each country team to try to 
find a way for us not just to rotate units but eventually to 
build a plan to move in and out with unlimited equipment. But 
right now, it is very restricted.
    Mr. Gibson. Well, it is encouraging that you at least have 
identified the challenges and you are working to in a joint way 
incorporate the lessons. I think that is going to make us 
stronger, as we look towards the reset. Thanks.
    Mr. Forbes. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    And I thank all of you for your testimony and your service 
to our country.
    General Stevenson, you mentioned it in your opening 
statement that, you know, as we move to a reset, which you said 
typically takes 2 to 3 years, you have a lesser ask in your 
fiscal year 2012 budget. I just wanted you to elaborate on that 
a little bit.
    General Stevenson. Yes, sir, the amount next year, I 
believe, is somewhere around $4.5 billion for a reset for the 
Army. And that is considerably less than it has been in 
previous years.
    Two big reasons for that. One is timing, that is, when the 
stuff that is in Iraq is going to be put into maintenance. And 
the other is the type of stuff that is coming out of Iraq.
    We have virtually no combat vehicles left, no tanks, no 
Bradley Fighting Vehicles, no M113 personnel carriers, no self-
propelled howitzers. There are some, but not very large 
numbers. And those are the big dollar drivers for a reset for 
the Army. But mostly what we have in Iraq today is MRAPs. And 
they are not nearly as expensive to reset as a tank or a 
Bradley.
    But back to the timing issue, if you just consider when we 
are going to be coming out, and if you look--and you perhaps 
haven't had a chance to see the plan yet, because it is still 
coming together--but the plan has the 50,000 forces that are 
there are coming out mostly in the fall of this year, which 
means they will end up in Kuwait somewhere around the turn of 
the year.
    And by the time we get them on a ship and back to the 
continental United States and then off to a source of repair, 
it will be the third quarter when they finally land there. And 
then they have got to be inducted into a maintenance program. 
Our depots typically plan their work a year in advance, so most 
of them probably won't induct until fiscal 2013.
    And that is why it is a timing thing. You will see our 2013 
request will account for all of that.
    Mr. Runyan. Well, thank you.
    And as we are talking budgets, General Johnson, you know, 
moving all this equipment, and I think we all feel it in our 
lives every day, the price of fuel around the world is 
drastically affecting your ability and your budget constraints. 
Can you comment on that?
    General Johnson. Yes, sir. In the short run, obviously, we 
probably are the greatest consumer of fuel in the Department of 
Defense with our Air Mobility Command component. So Air 
Mobility Command has undertaken some fuel efficiency efforts 
before this current change in the fuel price, because we know 
we need a smaller carbon footprint and to be good stewards of 
money.
    And so what they have done is invested in some fuel 
planning types of software programs and in a way of conducting 
flights that the commercial industry has taken on in the past 
and has achieved already 5 to 10 percent of savings in the fuel 
use. And, as well, we are trying to find ways to avoid using 
air when we can. That is why the surface alternative is a 
better one.
    And when you factor in all costs, including fuel, if, for 
instance, it costs, say, 30 cents a pound to send something via 
ship and land, it costs 10 times that. It costs $3 a pound to 
do it by fixed wing air. Rotary air is 20 times.
    And so if we can find some way to get that cost closer to 
what it would be on a ship or a truck, the way business does to 
reduce their costs as well, that is what we are trying to do.
    There are obviously some efforts with alternative fuels 
that we have explored. The Air Force has explored using 
various--whether it is from coal or other alternative fuels in 
engines to see if that might work, there needs to be a larger, 
obviously, market for that for us to be part of it as we go.
    And then we have a very small R&D [Research & Development] 
budget at TRANSCOM. We try to come up with ways, whether it is 
low-cost, low-altitude parachutes or look at other crafts to 
see if there is another way to deliver logistics cheaper, maybe 
from unmanned vehicles.
    We are actually looking at a new generation of air ships, 
sort of blimps, if you will, to be, you know, sort of faster 
ships. They are not slow airplanes. They are really faster 
ships.
    And there may be a business case for that in austere 
environments, especially for humanitarian assistance, to be 
able to use large amounts of equipment for a very little bit of 
fuel and without having, you know, port facilities or an 
elaborate airfield, to able to do it simply and have some 
benefit from what is old is new and look at those ways and try 
to be more creative in how we deliver.
    Mr. Runyan. Thank you very much.
    Mr. Chairman, I yield back.
    General Collyar. Can I add something to that statement 
please?
    Mr. Forbes. Please, General.
    General Collyar. At Defense Logistics Agency, we provide 
all of the fuel for the Services. And today that is about 70 
million gallons a month. So the quantity is very, very 
significant and we are looking at all possible mitigation 
strategies.
    The key to the keeping the fuel cost down, though is we do 
have long-term contracts. There is an extensive vendor base 
throughout the world. We provide fuel to a specific location on 
the ground at a specified price delivered, FOB [Forward 
Operating Base] destination, which is right now just over $3 a 
gallon.
    We adjust that price to the Services about every 6 months 
based on actual cost so that we can, again, try to mitigate the 
continuous fluctuations of day-to-day pricing. But our long-
term contracts and the significant buying power we have across 
the world lets us buy at a relatively low cost. That final 
delivery that Michelle talked about is very, very significant 
in that, though.
    Mr. Forbes. Thank you, gentlemen.
    Mr. Ryan has a quick follow-up question before we go to the 
gentleman from Texas.
    Mr. Ryan. Yes. Thanks, Mr. Chairman.
    General, I guess either of you can answer this. Last year I 
was on the Defense Appropriations Subcommittee, and we were 
talking a lot about how much it actually costs to get a gallon 
of fuel from wherever it originates to somewhere in Iraq or 
Afghanistan, if you can just enlighten us on that?
    General Collyar. There is a lot of myth and legend about 
the fully burdened cost of fuel. The Defense Logistics Agency 
today, the cost of fuel anywhere in the world is $3.03. That is 
with our delivery to a FOB. And in Afghanistan, we are 
delivering to about 14 different locations. And that is the 
cost to deliver to there.
    Now, there is a challenge that I can't answer how much it 
costs for a Service to take it from there to another FOB out of 
the 200-plus locations that they may have to deliver to, but 
the cost of basic delivery to the large locations that we 
support in supply is $3 a gallon.
    Mr. Forbes. The gentlelady from Hawaii had a quick follow 
up to that.
    Ms. Hanabusa. Hello, General. Somehow it doesn't seem to 
logically follow that it would be $3.03 cents to wherever we 
want to send it. I mean, isn't there some logistical advantages 
to be in a particular location, or, more importantly, shouldn't 
there be an advantage, if you are going to a shorter distance 
that you wouldn't be paying $3.03 cents, whether you are going 
to Afghanistan or, say, Hawaii.
    I mean, you know, there should be some--it just logically 
seems there should be some kind of advantage to that.
    General Collyar. There are advantages. Again, the average 
cost, which is what we charge per gallon to the Services, is 
averaged across all of that worldwide fuel requirement. And 
that is it is cheaper to certain locations, but they pay an 
average price.
    But in Afghanistan today our contract, again, we get fuel 
based on a worldwide vendor network from that area. So I know 
there are no refineries in Afghanistan itself, but we get fuel 
from Pakistan and certain types that they provide, JP-8 [Jet 
Propellant 8 jet fuel]. And then we provide also through India 
and through the Northern Distribution Network.
    Mr. Forbes. General, I think what the gentlelady from 
Hawaii is asking--maybe you can get back to us on the record on 
this--is we understand that you may average it all out and 
charge a single price. But I think her question is, do we ever 
get a breakout and see how much it is actually costing to have 
different areas geographically, because there is a 
differentiation in cost.
    And I understand you don't have those figures today, but if 
you could get back to us with those.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Forbes. I think Mr. Runyan, you hit a nerve because the 
gentlelady from Missouri also has a question on that, if we can 
briefly.
    Mrs. Hartzler. Thank you. Just a real quick question, and I 
think you may have partially answered it. I was wondering where 
the fuel is originating that we are using in Afghanistan. So 
you said part of it is from Pakistan. I just wondered how much 
are we buying and depending on Russia for a lot of that fuel.
    General Collyar. Ma'am, we get a portion from Pakistan. 
There is a portion of it that is provided through Russia. We 
get it through multiple different routes. The NDN provides 
about five or six different countries through the Caucasus and 
across that we provide fuel from.
    Again, our goal is to have it from as many locations as 
possible to ensure your vendor base is solid.
    Mrs. Hartzler. Yes. I am a little nervous about depending 
too much on any one of those people you have mentioned at this 
point. I think that makes sense.
    Thank you.
    Ms. Bordallo. I have a quick follow up also. Did you get 
your--what is the length of the contracts? You said 
``lengthy.'' Somebody mentioned lengthy contracts. I just hope 
we are not tied into contracts for too long a period.
    General Collyar. Ma'am, the average contract right now is 
based on either a 12-month or it could be an 18-month contract 
with options available to us.
    Ms. Bordallo. Oh, well, that is not so bad. I was thinking 
years.
    Mr. Forbes. And if you will bear with us, we have three 
votes. We are going to try to get one more question in. But if 
you will just be patient, we will run over and vote and then 
come back.
    The gentleman from Texas.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you all for the great work that you are doing and 
for your service.
    My question deals with--and I know contractors have been 
mentioned here several times, but my question deals with our 
reliance on contractors worldwide and in particular in areas 
like the Middle East and in combat situations.
    According to our figures, last year we spent more than $200 
billion on contractor support. Many of these contractors, I 
know, fulfill vital logistics roles, and, as has been noted, 
fuel is only one of them, but also maintenance and dining 
facilities contracts.
    And the concern that I have is that we may be losing our 
ability to have our own in-house system of being able to take 
care of these kinds of issues. I know that in an asymmetrical 
low-intensity conflict, the use of contractors has been an 
option--some would argue not a good option, but an option 
nonetheless.
    But my concern is that with this reliance, is the military 
relying too much on contractors? And can we still have the 
capability to do these kinds of tasks, you know, I guess 
organically for lack of a better way to describe it?
    So in the event of a high-intensity conflict, do our 
military capabilities, will they be able to fulfill these kinds 
of requirements? Because we all know that not only do we have 
the finest military in the world, in the history of the world, 
but what differentiates us many times from others is the 
logistical capabilities that we bring to the fight.
    So can anybody address that?
    General Stevenson. Yes, sir. I would take a first shot at 
it. This is something I spend a lot of my time thinking about, 
concerned about and examining as we structure the Army.
    You know, we go through a very deliberate process to 
structure the Army. We run that cycle every 2 years and are 
about to start running it every year. The short answer of your 
question is I am not concerned. I think we are okay.
    In the specific case of food service that you mentioned, we 
designed the Army to be able to do what we call field feeding, 
MREs [Meals, Ready-To-Eat], and something called a heat-and-
serve ration. We don't have enough cooks to do the kind of food 
service operations that you might see in a garrison dining 
facility, because we just don't think we need that for wartime.
    When we get into a position, like we are today, where we 
are in a sort of a benign environment where you can use 
contractors and you can set up a dining facility and provide a 
soldier what we call an A-ration meal, great. And we will do 
that with contractors.
    But when we get into an area where we are fighting or we 
are in major combat operations, or at these combat outposts 
that you see in Afghanistan, that is all soldiers. That is not 
contractors.
    General Panter. If I may, just to jump on with General 
Stevenson's comment, the expeditionary nature of the Marine 
Corps, early on in any conflict, we do maintain and we have 
this capability, the organic capability you speak of, sir. That 
is there. We have our appropriate logistics unit to do this 
organic piece that you speak of.
    As General Stevenson says, as the theater matures and it 
gets more stable, I think that is where you see the larger 
influx of contractors, getting to the issue you speak about.
    General Johnson. Sir, at the other end of the spectrum of 
the contracting, TRANSCOM obviously works in partnership with 
U.S. flag fleets and the commercial reserve air fleet and also 
the sealift fleet.
    And those carriers are worldwide carriers. They are very 
reputable, and they have networks to help us have economic and 
transit access in different countries. And also they provide 
this surge capability for us that day in and day out would be 
prohibitively expensive for the taxpayer to support, but our 
organic fleet can do it.
    But having that surge capability and knowing if we really 
needed it, it would be there, that relationship is tremendously 
important. And then, obviously, there is a concurrent benefit 
to the flag fleet, the prosperity of the merchant mariners and 
the ports that support them and that whole dynamic that goes 
along with the U.S. flag fleet.
    So that is TRANSCOM's end. And we appreciate the 
partnership. But we can handle it with the organic fleet as 
well.
    Mr. Forbes. And if you have any other comments, we will 
finish these when we come back. But we need to adjourn now, or 
recess now for an opportunity to vote.
    We will be back after three votes. Thank you.
    [Recess.]
    Mr. Forbes. Thank you for your patience, and we hope some 
of our members will make it back. We know that today is an 
interesting day. As you all know, we are talking about budgets, 
and they all impact all of you significantly as well. So we 
don't know what our scheduling is going to be in terms of our 
members.
    But I want to pick up where Mr. Reyes left off when we 
asked about the concern with contractors. And I think all of 
you indicated that our contractors are an essential part of 
what you do. And would you not agree that without our 
contractors, we simply couldn't do that jobs that we need to 
do?
    I think, General Stevenson, your comment was that you 
thought we had it under control, and it was right. And is that 
pretty much consistently what the panel feels in terms of our 
contractor mix with what we are doing?
    Anybody disagree with that, to do it?
    The other question I wanted to ask while we are waiting for 
some of our other members to come back is the prepositioned 
stocks. I know some of you have talked about some of our 
reductions in that. And that is a concern that we have heard 
voiced in our subcommittee in past hearings.
    Can you tell us what the impacts of some of those 
reductions might be on you? And are we kind of at the right 
place there? Or is that something we need to look at to change?
    General.
    General Stevenson. Sir, there aren't any reductions been 
decided upon yet. There is discussion about whether or not the 
size of the afloat prepositioned stocks, both Army and Marine 
Corps, is too big. But we are probably at least, I would say, 6 
to 9 months away from recommendations and decisions about that.
    But beyond that, there is no plan to reduce. In fact, we 
are actively working to rebuild our prepositioned stocks in 
accordance with something we call APS, Army prepositioned 
stocks 2015. And we are well on our way. I would say we are 
probably two-thirds of the way there toward rebuilding. But any 
reductions we are not even close to a decision on it.
    Mr. Forbes. General Panter, I know one of the things we 
have seen is the Navy's budget has included an initiative that 
projects about $4.2 billion in savings by, among other things, 
restructuring its prepositioned ship squadrons.
    In your opinion, what are the impacts of readiness of 
moving this capability to a reduced status?
    General Panter. Sir, that reduced status issue, the Marine 
Corps does have a concern over it. That particular squadron 
supports EUCOM [U.S. European Command] and AFRICOM, and we 
routinely use that in theater engagement and for training 
exercises. I would suspect the two COCOMs involved also have a 
concern over that as well.
    And getting back to General Stevenson's comment, we think 
what we have right now is aligned properly with the 
requirements of the COCOM commanders.
    Now, the issue I earlier brought up, that equipment, while 
we have some critical shortfalls, in general the readiness 
ratings are pretty high. We do need to refresh it from the 
lessons learned in combat.
    Thank you.
    Mr. Forbes. General Johnson, I know that TRANSCOM 
structures its force and how prepositioned stocks are factored 
in. How would reductions in prepositioned stocks affect your 
ability to meet your requirements?
    General Johnson. Sir, we are actually in the midst right 
now of studying the as-is state of prepositioned materials to 
see if, in partnership with DLA, if TRANSCOM and DLA could 
possibly be even more effective in delivering what is there.
    We don't have a vote in what the content is. Because the 
Services are having the opportunity now to reset and to 
reconstitute their ``pre-po'' [prepositioned materials], the 
Department saw this as an opportune time to take a look at how 
it is arrayed, to see if we have learned anything about 
distribution in the last 10 years or so, to see where they are 
and in what medium, whether they are afloat or ashore, if they 
can be presented even better than they are.
    Because now, it has been deemed, as the general said, 
effective that they can respond to the plans that they are 
aligned for. We just want to see if we can do better. But that 
study is literally just completing the very first phase to 
assess what we have.
    And those are things that we are trying to take account of, 
of being good stewards of how much it costs to move things and 
store them, but most importantly to build a support to the 
warfighters in their efforts.
    Mr. Forbes. General----
    General Stevenson. [Off mike.]
    Mr. Forbes. I am sorry. Yes.
    General Stevenson. Chairman, if I could follow up?
    Mr. Forbes. Sure.
    General Stevenson. Something that we have done, and this 
was done internal to the Army, given what DLA has done in the 
last 10 years in terms of forward-positioned depots--and 
General Collyar alluded to that--we used to have in our afloat 
set two large container ships, which we spent probably $40 
million, $50 million per year each to maintain afloat 
sustainment stocks.
    Because of the nature of DLA's distribution of their depots 
around the world, we believe now that we can position our 
materiel in those depots on land and have them in the right 
places to meet all of the potential contingencies and won't 
need those sustainment ships, those two container ships that we 
would contract for as part of the afloat stock.
    So there is an example of how we are working with the 
Defense Logistics Agency to come up with a cheaper way to 
achieve the same end.
    Mr. Forbes. And General Panter, I know that you may have a 
little disagreement with how the Marine Corps views that, as 
opposed to the Army. What is your thought there?
    General Panter. We approach it a little differently, sir. I 
think you realize when we load our ships out, these are 
capability ships. And the expectations are that the equipment 
that we put on these ships can support the war fight in the 
initial stages of the war fight.
    As we run these things through our maintenance cycle, we 
pay particular attention on how we would load these ships so 
they can achieve that mission. So, for us, it is not considered 
a floating warehouse. It is capability--warfighting 
capability--that we can project for.
    Mr. Forbes. And that is something we have just got to keep 
our eyes on that ball and not miss that.
    General Collyar, in our supply chains now, if you had to 
point out, do we have any key single points of failure? And 
maybe the flip side of that, are there places where we have too 
much redundancy?
    General Collyar. Sir, many of the commodities, the big 
commodities of food and fuel, we are such a small portion--and 
in medical also--a small portion of the overall worldwide 
supply chain that we don't have issues with those.
    Probably the greatest individual chain that we have issues 
with is clothing and textiles and the American base there. With 
the continuing adjustments to uniforms and all to support the 
theaters, we are challenged to have a supply base here in the 
United States for--really, the textile industry is probably our 
most important.
    Mr. Forbes. Gentlelady from Hawaii is recognized for----
    I am sorry. I am sorry. Ms. Bordallo has a follow-up on 
that.
    Ms. Bordallo. Well, not exactly a follow-up, but I do have 
a question. During a recent posture hearing with General McNabb 
from TRANSCOM, we discussed ship repairs in U.S. shipyards.
    And to continue and to dig a little deeper into this issue, 
I understand that the Guam shipyard has had some difficulty 
with its dry dock. However, I find that it is up. But it is 
undergoing some repairs now.
    But the trend of sending ships overseas has occurred 
consistently, even before this event. In other words, they are 
sending MSC ships to Singapore and other foreign ports. What 
steps can be taken to address this matter further? And I am 
very concerned that we are degrading our domestic industrial 
capabilities.
    I think, General Johnson, you probably will be able to 
answer that. Could you discuss what sort of planning models are 
taken into consideration when repairing naval or MSC [Military 
Sealift Command] ships. You know, where is ``Buy America''?
    General Johnson. Ma'am, I will probably take the larger 
portion of this question for the record so I can get you the 
detail. But in general, the vessels that are staged overseas 
from a certain period of time is something like over 2 years. 
You know, the big Navy can determine to have those repairs done 
overseas.
    Those tend not to be the kinds of vessels that attend to 
TRANSCOM work to do the cargo vessels. As you have had a chance 
to talk with the commander of Military Sealift Command, you 
have had a sense to know that we, you know, the $40 million 
worth of work that we do in Guam. And we do hope that the Big 
Blue dry dock can be back up.
    Ms. Bordallo. Yes, it is up now.
    General Johnson. Yes, ma'am.
    Ms. Bordallo. I understand.
    General Johnson. And so I will have to take for the record 
the details of that process for you and for your staff to 
better understand that.
    [The information referred to can be found in the Appendix 
on page 85.]
    Ms. Bordallo. Very good.
    And one quick question for General Johnson also, 
referencing the Defense Personal Property System, DPS, I 
understand that a new system is in place now for the movement 
of personal goods during a PCS [Permanent Change of Station] 
move.
    However, I do understand that some in the community of 
users have raised concerns about the new system. And I also 
understand that there is a concern this system was developed 
without adequate input from the shipping community that 
provides the services.
    So can you discuss what is being done to improve this and 
to what extent contractors are involved in the improvements of 
this new technology?
    General Johnson. Yes, ma'am. Thank you for that question. 
The movement of household goods is an enormous undertaking for 
the Department of Defense, obviously, with all the movement of 
our forces.
    And the last 2 years have been particularly challenging, 
because with the economy in decline, the trucking industry has 
laid up several of their vehicles, so their capacity was much 
reduced.
    Unfortunately, at the same time, some of the BRAC [Base 
Closure and Realignment] moves have actually accelerated 
household goods moves in the Department of Defense, which put 
more pressure on the industry to just create more of a perfect 
storm then. At the same time, we have been developing this new 
Web-based program to actually help with the quality of life for 
military members in their moves.
    And we have had 11 different occasions to meet with 
industry in major forums over the last 2 years, and then the 
discussions went on before that, to try to refine the process.
    We have over 70 percent of members of the Services, I 
think, using the DPS now. We have received 30 percent customer 
surveys. So of those 30 percent who have submitted customer 
surveys, we can have a sense of how that is working for the 
military members. There is also a feedback loop with the 
carriers as well.
    Some of the complaints initially was that the Web site was 
cumbersome, and it was. And we are trying to do better with 
that. It wasn't as elegant as some of the--I think the easiest, 
you know, whether expedia.com or Amazon or that sort of thing. 
It is meant to be. And so it has improved with the feedback.
    And as we approach this peak season, this peak move season 
coming up, our teammates have worked with the trucking industry 
to come up with alternatives.
    Even though the normal enclosed moving truck that we are 
used to seeing is in shorter supply this year, we have come up 
with agreements with them to use crating and on flatbed trucks 
that will provide a secure move for the members, but also gives 
an alternative to industry for them to have business as their 
business picks up.
    And we have also, with this program, been able to black 
out, in a sense, to block out times of peak, so that people 
don't oversubscribe to a period of time when they can't be 
supported, which is a burden on the industry as well as on the 
members, and to then phase out the move to make it more smooth.
    So we think the improvements we have made will benefit both 
the members and the industry. And, actually, a side benefit of 
this is we have saved over $200 million along the way.
    Ms. Bordallo. Absolutely.
    General Johnson. So that has really been a benefit to the 
Department of Defense and makes it a competitive environment 
for industry. But it has been quite a value for the Department 
of Defense.
    Ms. Bordallo. Thank you.
    Thank you, General, and I yield back.
    Mr. Forbes. Thank you.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    And thank you, all of you, for being here to testify. You 
are really probably the unsung heroes, because you make things 
actually work.
    So, having said that, my first question is to Lieutenant 
General Stevenson. In your statement, you used this word or 
this phrase ``organic industrial base.'' What is an organic 
industrial base?
    General Stevenson. Yes, ma'am. What I was referring to are 
depots, maintenance depots that are operated by the Army--we 
have five; arsenals, which are operated by the Army--we have 
three, manufacturing arsenals; and then a number of ammunition 
plants and also ammunition depots, and there are a total of 14 
of those. That makes up the organic industrial base.
    And the notion there is that we have a capability internal 
to the Army to support ourselves in time of war and so that we 
are not reliant, necessarily, on the commercial outside the 
Army base.
    Ms. Hanabusa. And how much of our needs are the organic 
industrial bases or depots capable of meeting?
    General Stevenson. I think, geez, that is an interesting 
question. I have not really looked at it in that way.
    Let me say this. By law, we were required to do no more 
than 50 percent of our depot maintenance outside the base. In 
other words, the law says, ``Do at least 50 percent of the 
depot level work in the depot,'' the organic depots. And we are 
complying with that. We are actually about 60 percent in the 
organic base.
    Could we do 100 percent? Pretty close. We probably could.
    Ms. Hanabusa. And particular ammunitions, for example.
    General Stevenson. Ammunition is much closer. The law 
doesn't talk about how much of our ammunition must be produced 
organically. It only refers to the maintenance depots. It 
doesn't even refer to the manufacturing arsenals, which is 
something we would like to--we plan to propose some thoughts 
about what we ought to have in the way of law for that in the 
future.
    But in ammunition, there are no requirements. There are 
things, though, that we know that commercial industry won't do. 
Just South of here in Radford, Virginia, we make what is called 
nitrocellulose. It is the T in TNT.
    Ms. Hanabusa. Can you also tell me, then, if this is what 
is ongoing, what is the savings, if we are able to go to 100 
percent?
    And, let me just share with you, I happen to believe that 
if the military can insource, basically, all of its needs in 
terms of what we are outsourcing, not to say anything about the 
private sector, but if we could insource especially these 
critical aspects of our needs, that we probably, you know, 
could do it efficiently and, in addition to that, at a great 
cost savings.
    And I just wondered if there was a cost-benefit analysis 
done.
    General Stevenson. There is. And that is exactly what 
drives us to not use the organic bases. It is a maintenance 
action that has to occur every once in a blue moon. It doesn't 
really make sense to keep that capability to gear up the 
organic base just to do that small task and then gear back 
down. It is inefficient.
    We have another law besides the 50-50 law that says 50 
percent must be done organically. Another law says we must 
maintain a core, C-O-R-E, organic capability in our organic 
industrial base that is the amount of capability to meet our 
needs in wartime. And we are very careful about ensuring that 
we meet that core capability. We can do 100 percent of our core 
requirement in our base.
    To be completely frank with you, today we have some 
shortcomings there, where there are things that we should have 
the capability to do in the base that we can't. And there are 
long reasons for how that occurred. We are working to fix that 
and ensure that we have complete compliance with the law and 
can do every bit of our wartime requirement organically, should 
we have the need to.
    Ms. Hanabusa. And I am running out of time, but I believe 
that maybe you can answer this in writing. You know, Secretary 
Gates has this whole idea of how to save monies through 
efficiencies. Now, is, by any chance, any of the operations 
regarding the organic base part of it? And if not, what exactly 
or how does his efficiency measures that are going to cut cost 
affect you?
    General Stevenson. Everything is subject to being 
considered in this look at the efficiency of the Department of 
Defense. And we shouldn't be exempt from that. We should be 
looking internally to see if we are doing business as 
efficiently as possible.
    And the fact is, we can. I mean, there are still cases 
where there are redundancies that don't need to be, perhaps 
between the Services. And there has been a lot of work to 
correct that over the years--centers of technical excellence in 
one Service that the other Service can depend upon, and that 
goes both ways.
    And then just the way we operate in the base. An example 
for you, our arsenals are probably--of our organic industrial 
base, they are probably the least workloaded. And we have 
capacity there, untapped capacity. But having untapped capacity 
in the business--and this organic base is a business--is not 
efficient. It means you are paying overhead that you don't need 
to be paying.
    And so we have got to do a better job ourselves of getting 
business for our manufacturing arsenals. We are doing some work 
with that. General Collyar can tell you that we are 
manufacturing small arms parts, weapons parts, for the DLA, 
because they have had some difficulties with some of their 
suppliers. That is perfect work for an arsenal. In fact, it is 
being done at the Rock Island Arsenal in Illinois.
    We need to do more of that. I sent a note last night to my 
counterpart in the Air Force asking about bomb casings that 
they are using a contractor to make for them. We could make 
those bomb casings at Watervliet arsenal. And my approach to 
him was, let us do that for you.
    The more of that kind of work we can do, we can make our 
arsenals more efficient.
    Ms. Hanabusa. Thank you.
    Thank you, Mr. Chair.
    Mr. Forbes. Thank you.
    As I mentioned at the beginning, I deferred my questions. I 
just have about three questions for you.
    Now, one of them is about counterfeit parts. All of us know 
that they have the potential to seriously disrupt the DOD 
[Department of Defense] supply chain, to delay missions, to 
infect the integrity of our weapon systems.
    As you also know, a congressionally requested GAO study on 
counterfeit parts completed in March 2010 found that DOD is 
limited in its ability to determine the extent to which 
counterfeit parts exist in our supply chain, because it does 
not have a DOD-wide definition of the term ``counterfeit'' and 
does not have a policy or specific process for detecting and 
preventing counterfeit parts.
    General Collyar, what are we doing about that, and how can 
we address that problem better?
    General Collyar. Sir, first of all, we recognize that there 
is a problem. We don't truly know the depth of the problem and 
the scope of the problem. But we know it, and it hurts us and 
it hurts industry.
    So we have actually formed an organizational effectiveness 
team led by two Senior Executive Service personnel. We have got 
contracting personnel, we have got legal personnel, engineers, 
all working together to develop and, again, work with industry 
to find certified traceability of parts, certify both the 
manufacturers and the parts. And we have different ways of 
doing that.
    Again, we are very susceptible when with those 10,000 
automated contracts every day, you have a hard time vetting all 
of those people that are truly providing those parts. So we are 
looking, using automation models to determine if things are out 
of line with either pricing or quality of the parts.
    And then we are also looking at ways to even DNA-stamp 
parts to ensure that the chain of reliability or certification 
of the parts is there, because a lot of times, it is not the 
OEM [Original Equipment Manufacturer] that is providing it. It 
is one of the sub-manufacturers way down the line, as complex 
as many of these things are.
    And so we have a testing facility. We are working heavily 
with them out in Columbus, Ohio, to test for counterfeit. It is 
one of the priorities that we have on line right now.
    Mr. Forbes. If you see something else you think we can do 
to help, please let us know.
    The other thing the gentlelady from Hawaii mentioned were 
the efficiencies and, for a better term, we call them just 
cuts, that are taking place. And I think, General Stevenson, 
you mentioned everything should be on the table. We don't 
question that.
    Here is the concern we have as a committee, I think, 
though, and perhaps congressionally, that oftentimes these 
efficiencies or cuts, however you want to deem them, are not 
being done based on business models that have milestones that 
you can really measure to make sure that in the long run they 
are cost savings, as opposed to things that we are just kicking 
down the road.
    Do we need to have more business models when we make these 
decisions, do you think? And how do we go about bridging that 
gap, I guess, of credibility, because it seems like more and 
more we are getting it where somebody is coming and just 
telling us well, we had some meetings, and we decided, but we 
never see that analysis.
    General Stevenson. Sir, two thoughts. First thought is, at 
least in the logistics area, we are getting a vote. It is a 
bottom-up offering, not a top-down ``cut 10 percent, and you 
guys figure out how to make that work.''
    Mr. Forbes. But is your vote based on a business model, or 
is it based on the fact we have got to cut something, and this 
what we think is the thing that would be the least painful?
    General Stevenson. I am not sure I would call it a business 
model, but it is certainly an examination of what we think the 
possibilities are. And then it is, you know, on us as managers 
to ensure that we deliver the goods and what we said we could 
do. And shame on us if we can't pull it off. Then we were silly 
and shortsighted in what we proposed.
    Mr. Forbes. But you guys oftentimes have a great mentality, 
and we salute you for this. But it is that whenever somebody 
asks you to do something, you salute and say, ``We can do it.'' 
And I have never heard you say, ``No, we can't do it,'' which 
is admirable, but we don't want to put you in that position.
    General Stevenson. Yes, sir. We do say we can't do things. 
We just don't do it publicly.
    [Laughter.]
    Mr. Forbes. And that is what we are trying to get you to 
do, I guess.
    Anybody else weigh in on a business model aspect of what--
General?
    General Panter. Mr. Chairman, if I may, and I will be a 
little bit more blunt with it, I guess. We are concerned about 
some of the efficiencies as they are being discussed and the 
business case analysis that might be behind them.
    In all honesty, my Service, and fair to say, Department of 
Navy has the position that some of these efficiencies we have 
concerns, not that we can't accept them, not that they are not 
good ideas, we are just asking for the proper analysis to be 
done so there are not secondary effects that we will regret.
    Mr. Forbes. And just so you know, this committee is going 
to help you guys. We are going to try to give you some of that 
business model analysis so that you don't have to ask for it, 
but that it is in there so that we know. And I hope that we 
will have some stuff to help along that line.
    Just two other questions that I have got. One of them we 
kind of hinted at, and it is in the industrial base. I know 
this is not totally your areas.
    But one of the things that worries me, and I have talked 
to, I think, all of you privately about this, you know, when we 
go back to World War II, when we had to gear up for World War 
II, we will never be in a situation where our military is 
capable of fighting long-term battles by itself. I mean, they 
have got to have private sector and all involved.
    We shifted manufacturers of arcade games into making 
munitions and other kinds of things. We are losing that 
industrial base here, as you have to depend more and more on 
foreign sources to even get the supplies that you need.
    Does that concern you? And at any time, do any of you take 
a look at not just how I am getting the items I need today, be 
it maintenance or be it items that I have to put in the supply 
chain, but who is manufacturing them?
    And if we had to have that intense long-going conflict, do 
we have the industrial base, not just for ships--that is 
important--but for everything that you have to supply to our 
military?
    General Stevenson. Yes. The short answer is yes. And 
probably the best example I can give you is in the ammunition 
business. We have a very deliberate, detailed industrial base 
assessment process we use for every munition that we produce.
    As you know, the Army is the single manager for 
conventional ammunition for all the Services. And I could show 
you for every munition we produce a complete breakout of where 
every part comes from, where the single points of failure are, 
and what mitigation steps that we are taking to ensure that in 
time of war we have the ability to get that subcomponent so 
that we can produce the munition.
    We work very hard at that, and we know that we are 
susceptible to offshore sources, and we have got to have 
mitigating strategy. In some cases, we buy to keep a vendor in 
business even though we don't have a need because it is so 
critical----
    Mr. Forbes. Create capability.
    General Stevenson [continuing]. For our future. Yes, sir.
    General Panter. Mr. Chairman, if I may--if I could use 
another example in this area that I am pretty comfortable with, 
ground tactical equipment. If you look at what we do with the 
MRAP, since 2007, they were there. Industry was there when we 
needed them. We expended over $30 billion. We delivered in a 
partnership an item that actually saved lives.
    When it comes to ground equipment, I think there are many 
skills sets out there that are transferable and they are well 
today. And I think in a time of great crisis, we could pretty 
well rely on them.
    When it comes to aviation, shipbuilding, I am certainly not 
an expert in that area, but my experience with the ground side 
of the house, I think we are in pretty good situation.
    Mr. Forbes. You know, one of the things we may just need to 
be looking at, too. I know if you look at plants, for example, 
that geared up to help do the Kevlar that we needed for some of 
our vests and all, at times they feel like we pulled the rug 
out from under them. You know, we asked them to shift. It cost 
them a lot of money to do it. But then we kind of pulled that 
rug out from under them.
    And the question I always have, if we do that, what are 
they going to do next time, you know, when we need them? So it 
is something I know you guys are concerned about. We just need 
to have that conversation about how we support them.
    General Johnson, what are your thoughts?
    General Johnson. Well, sir, you have alluded to sealift and 
airlift, and obviously that is one of our greatest interests, 
even with these air ships that we talked about. There are 
companies trying to figure out if they have a business case for 
that type of different vehicle. Some of the testing we do out 
in the ranges for our unmanned logistics vehicles and that sort 
of thing, it shows a dynamic interest out there.
    If you are talking about producing in great numbers, 
though, that is obviously the business of this committee more 
than for us in transport. But we have found great support. When 
we try to look for new ideas, we have found great support from 
the U.S. flag industry and then home-based industry.
    Mr. Forbes. General Collyar, any thoughts?
    General Collyar. Sir, no. You know, overall, most of the 
commodities that we support, we have a relatively good 
industrial base. I said textiles and some of the Nomex [flame 
resistant fiber] and different types of things. You actually 
said one of them that is very key with the armor protecting 
materials. And it is a challenge because of our long-term 
commitment to those types of organizations and what they 
produce.
    I think one of the things that the Army has done well is 
try to look at those and see which of the items that is the 
item du jour today that we are really going to keep in the 
system long-term and make sure we do continue to support those 
versus what we are using in today's conflict and may decide we 
don't need to keep that long-term within our capability.
    The other challenge that we have in DLA is to support all 
the legacy systems along with those new systems coming out, and 
we lose manufacturers off of those systems routinely also.
    Mr. Forbes. Last question I have got for you. All of us, we 
appreciate so much, as we said at the beginning, your 
expertise, the experience you bring here, your service to our 
country. It all comes with a unique skill set that you bring to 
the table.
    All of us, though, go through our days sometime, and we 
have good days, but there is one thing that just kind of 
worries us and nags at us. And sometime you wake up at night 
and that hits you. And we oftentimes say, ``What keeps us up at 
night?'' You have heard those kinds of comments.
    What is the thing that concerns you most in what you have 
seen in terms of our readiness posture that you would say would 
be the thing that would concern you the most, not just for 
today, but 5 years down the road or 6 years down the road, if 
you had to peg that as the thing that would worry you most at 
night, if you had to pick one thing?
    General Stevenson. I was about to answer a today answer, 
but you took----
    Mr. Forbes. Today is okay if you want to do that. Or give 
me both.
    General Stevenson. The obvious thing, sir, is the CR 
[Continuing Resolution] and potentially the shutting down of 
the government.
    Mr. Forbes. That is a little out of our pay grade. So let 
us go to one that we can deal with.
    General Stevenson. But one that sort of Haiti brought to 
mind. You know, we have been very, very good at deploying and 
operating in Iraq and Afghanistan. And it has gotten in--it is 
a cyclic thing, and we know how to do it and it happens almost 
so smoothly and so by rote.
    But we have got to be able to do that on short notice to 
other places in the world. And we got soldiers--when we did 
Haiti, there are some skills that we didn't have because we had 
gotten rusty at them.
    And so 5 years from now, you know, we are out of Iraq, we 
are out of Afghanistan. You know, how are we going to keep 
those skills? You know, it just almost makes you cry how 
competent Army, Marine Corps, other Service logisticians are. 
They have gotten really, really good at this.
    It is something we haven't done, you know. I mean before 
the Cold War, end of the Cold War, I mean, we talked a lot, we 
practiced a lot, but we didn't do. We have been doing for 10 
years. And to keep those skills is what--how you keep them. How 
do you keep the soldiers motivated after what they have been 
through? That is what keeps me up at night.
    Mr. Forbes. So we found that with NASA [National 
Aeronautics and Space Administration] when we lost our ability 
to put somebody on the moon, you know.
    General.
    General Panter. I am sorry. If I was going to pick one 
thing, I think it is this reset issue. I use an analogy, and my 
folks hate it when I use it, but this ``pig in a snake'' 
[bottleneck] is coming.
    When we get out of Afghanistan, we are going to have this 
tremendous requirement to reset our corps, our Marine Corps. I 
just hope that the American public and Congress will be there 
when we need them.
    And, as Mitch has said before, we are going to need 2 or 3 
years to get this right, and that is coming. And I just hope 
the will is there to help us when we do start coming out of 
Afghanistan. Thank you.
    Mr. Forbes. Thank you.
    General Johnson.
    General Johnson. Sir, as we look at our responsibilities in 
the future environment that we are going to face, the idea of 
going to remote places with austere environments is more and 
more a reality.
    Our alignment in the world has been fairly East-West. We 
find that our presence north and south and those, whether in 
Africa, South America or even southern parts of the Pacific, 
perhaps aren't as robust.
    And so one of the interests we have taken is to come up 
with an infrastructure look, an annual look, with the other 
combatant commands to see if what if we could fix a road here 
or a port there, so that in the future, we would be able to go 
in to do--in a benign way to go do humanitarian assistance, not 
necessarily, you know, to do bellicose acts, although we could 
do that as well.
    But to fix a road in Souda Bay, Greece, may be a small 
investment, but it would give us the opportunity to support 
perhaps even better the activities in North Africa right now. 
The kind of work we are doing in Guam right now represents that 
sort of work, to make these intermodal nodes as we go.
    But as we build relationships with other countries, whether 
Vietnam or others that might give us this presence, so that we 
don't have a giant expensive footprint, but we have a way to 
respond in the way that General Stevenson alluded to, in ways 
that we can anticipate in place, that we can anticipate the 
kinds of things that might happen in the increasingly remote 
areas.
    Mr. Forbes. General Collyar.
    General Collyar. Sir, my thought is more along the lines of 
wearing my service uniform versus a DLA uniform.
    But it really does go back to more of what General Panter 
said. We have been given the greatest equipment today, and we 
continue to get full support for any new piece of equipment to 
support our troops deployed around the world.
    And I worry about our ability to continue to get that 
money, for the public to stomach us getting that money to reset 
and recap our equipment so we are prepared it in the future.
    And along the other thing that General Stevenson, I think, 
said, we have noncommissioned officers today that have no peer 
anywhere in the world, and it is because of what we allow them 
to do in the theater. And yet our regulations when we bring 
them back here require officers to do many of those same 
functions.
    And how do we keep junior, mid-grade NCOs [Non-Commissioned 
Officers] engaged when we take those responsibilities away from 
them that we fully handed them, including soldiers' lives? How 
do we keep them engaged and wanting to stay in and do what we 
need them to do in the future?
    Mr. Forbes. Good. Good comments. I promised all of you 
before that if you needed any other time to correct anything 
that you said or something we left out, to give you that 
opportunity.
    Anybody need anything else or feel that we have left out 
something that you think we need to put in the record or that 
you need to go back and reevaluate?
    Well, if not, we want to, again, thank you so much. This 
committee appreciates not just you being here today, but your 
service to our country. And by telling you that, we also 
hopefully are telling all the men and women that serve under 
you, and thank you.
    And with that, we are adjourned.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 7, 2011

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 7, 2011

=======================================================================


                   Statement of Hon. J. Randy Forbes

                  Chairman, Subcommittee on Readiness

                               Hearing on

             Sustaining the Force: Challenges to Readiness

                             April 7, 2011

    I want to welcome everyone to the subcommittee's hearing on 
``Sustaining the Force: Challenges to Readiness.'' Today we 
have the opportunity to discuss not only the current state of 
our logistical and maintenance readiness, but to also look at 
how we are posturing the force for the future. Joining us today 
are four exceptional witnesses representing the Army, Marine 
Corps, U.S. Transportation Command, and the Defense Logistics 
Agency.
    They are:

        <bullet> LLieutenant General Mitchell H. Stevenson, 
        USA, Deputy Chief of Staff, Logistics, G4, U.S. Army;

        <bullet> LLieutenant General Frank A. Panter, Jr., 
        USMC, Deputy Commandant, Installations and Logistics 
        Headquarters, U.S. Marine Corps;

        <bullet> LMajor General Michelle D. Johnson, USAF, 
        Director of Strategy, Policy, Programs and Logisitics, 
        J5/4, U.S. Transportation Command; and

        <bullet> LBrigadier General Lynn A. Collyar, USA, 
        Director of Logistics Operations, Defense Logistics 
        Agency.

    These four distinguished officers are responsible for 
transporting, sustaining and supporting our forces with both at 
home and abroad. They are charged not only with ensuring our 
men and women in have what they need when they need it, but are 
also responsible for ensuring we are postured to respond 
effectively to future real world contingencies like we have 
seen recently in Haiti and Japan.
    We are truly honored to have you join us today and we are 
extremely grateful for all you do to keep this nation safe. 
Thank you for your service.
    Our subcommittee's hearings over the last couple of months 
have highlighted the many potential global threats and 
challenges our military faces. There is no doubt that our 
military is under significant strain, but they are performing 
marvelously despite the many challenges they face. However, the 
work of this subcommittee is to not only ensure our force can 
continue to excel in Iraq and Afghanistan, but is also postured 
to respond to a myriad of potential challenges around the 
world, both in the near term and in the long term.
    Today, the Department of Defense has more than 450,000 
personnel abroad in support of our national interests. In 
CENTCOM [United States Central Command] alone, the U.S. has 
more than 150,000 brave men and women engaged in ongoing 
operations. These complex operations are sure to present 
significant logistical and maintenance challenges well beyond 
the President's stated goal for redeployment of combat forces 
from the region.
    I hope that this hearing will allow members to learn more 
about how we are meeting these current challenges while, at the 
same time, posturing ourselves for significant challenges we 
are certain to face in the future.
[GRAPHIC] [TIFF OMITTED] 65811.033

[GRAPHIC] [TIFF OMITTED] 65811.034

[GRAPHIC] [TIFF OMITTED] 65811.035

[GRAPHIC] [TIFF OMITTED] 65811.036

[GRAPHIC] [TIFF OMITTED] 65811.037

[GRAPHIC] [TIFF OMITTED] 65811.038

[GRAPHIC] [TIFF OMITTED] 65811.039

[GRAPHIC] [TIFF OMITTED] 65811.040

[GRAPHIC] [TIFF OMITTED] 65811.041

[GRAPHIC] [TIFF OMITTED] 65811.042

[GRAPHIC] [TIFF OMITTED] 65811.043

[GRAPHIC] [TIFF OMITTED] 65811.044

[GRAPHIC] [TIFF OMITTED] 65811.021

[GRAPHIC] [TIFF OMITTED] 65811.022

[GRAPHIC] [TIFF OMITTED] 65811.023

[GRAPHIC] [TIFF OMITTED] 65811.024

[GRAPHIC] [TIFF OMITTED] 65811.025

[GRAPHIC] [TIFF OMITTED] 65811.026

[GRAPHIC] [TIFF OMITTED] 65811.027

[GRAPHIC] [TIFF OMITTED] 65811.028

[GRAPHIC] [TIFF OMITTED] 65811.029

[GRAPHIC] [TIFF OMITTED] 65811.030

[GRAPHIC] [TIFF OMITTED] 65811.031

[GRAPHIC] [TIFF OMITTED] 65811.032

[GRAPHIC] [TIFF OMITTED] 65811.014

[GRAPHIC] [TIFF OMITTED] 65811.015

[GRAPHIC] [TIFF OMITTED] 65811.016

[GRAPHIC] [TIFF OMITTED] 65811.017

[GRAPHIC] [TIFF OMITTED] 65811.018

[GRAPHIC] [TIFF OMITTED] 65811.019

[GRAPHIC] [TIFF OMITTED] 65811.020

[GRAPHIC] [TIFF OMITTED] 65811.001

[GRAPHIC] [TIFF OMITTED] 65811.002

[GRAPHIC] [TIFF OMITTED] 65811.003

[GRAPHIC] [TIFF OMITTED] 65811.004

[GRAPHIC] [TIFF OMITTED] 65811.005

[GRAPHIC] [TIFF OMITTED] 65811.006

[GRAPHIC] [TIFF OMITTED] 65811.007

[GRAPHIC] [TIFF OMITTED] 65811.008

[GRAPHIC] [TIFF OMITTED] 65811.009

[GRAPHIC] [TIFF OMITTED] 65811.010

[GRAPHIC] [TIFF OMITTED] 65811.011

[GRAPHIC] [TIFF OMITTED] 65811.012

[GRAPHIC] [TIFF OMITTED] 65811.013

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 7, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    General Collyar. [The information was not available at the time of 
printing.] [See page 18.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO
    General Johnson. [The information was not available at the time of 
printing.] [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 7, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The budget contains a proposal to streamline logistics 
sustainment processes and optimize the Army's distribution, disposal, 
and transportation network in order to reduce your budget requirement 
by $600 million. Please discuss this optimization process and the 
implications should these savings not be fully realized.
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. How can we improve the core determination process?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. Among the Section 322 report's findings was that the 
Congress has poor visibility of the depot maintenance budget. How can 
we improve the reporting process to ensure Congress has the necessary 
information to provide oversight?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. Is there a formal process in place to nominate non-
standard equipment for inclusion in Modified Tables of Equipment and 
subsequently Prepositioned Stocks? If not, are we bringing home 
equipment that does not meet an enduring need?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. Are there items that need to be removed from 
prepositioned stocks because they no longer meet mission needs?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. What are your plans to better manage limited-life 
medical prepositioned stocks to avoid expiration and waste?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. Please discuss your requirements for DLA. How are 
things working? Where do you see gaps, if any?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. Can you discuss your requirements for TRANSCOM? How are 
things working? Where do you see gaps, if any?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. Please discuss how we are using forward depot 
maintenance and theatre provided equipment (TPE). What are the 
challenges associated with this approach?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. What can be done to enhance the Northern Distribution 
Network?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. What impact would a delayed redeployment of the 
remaining U.S. forces in Iraq have on our logistics and maintenance 
enterprise? Are we poised or such a contingency?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. In April of last year, the GAO identified several 
challenges facing the Department with retrograde of equipment from Iraq 
to include: unclear guidance on what non-standard equipment will be 
transferred to the Government of Iraq; the inability to fully identify 
its need for contracted services; and visibility over its inventory of 
equipment and shipping containers. What steps have you taken to improve 
the retrograde process? What steps have you taken to improve the 
process of transferring excess non-standard equipment to U.S. state and 
local governments?
    General Stevenson. [The information was not available at the time 
of printing.]
    Mr. Forbes. What steps are being taken to posture the depots for a 
post-reset environment? Are there adjustments to the statutory 
framework that need to be made?
    General Stevenson. [The information was not available at the time 
of printing.]

    Mr. Forbes. How can we improve the core determination process?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. Among the Section 322 report's findings was that the 
Congress has poor visibility of the depot maintenance budget. How can 
we improve the reporting process to ensure Congress has the necessary 
information to provide oversight?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. Are there items that need to be removed from 
prepositioned stocks because they no longer meet mission needs?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. What are your plans to better manage limited-life 
medical prepositioned stocks to avoid expiration and waste?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. Please discuss your requirements for DLA. How are 
things working? Where do you see gaps, if any?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. Can you discuss your requirements for TRANSCOM? How are 
things working? Where do you see gaps, if any?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. Please discuss how we are using forward depot 
maintenance and theatre provided equipment (TPE). What are the 
challenges associated with this approach?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. What can be done to enhance the Northern Distribution 
Network?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. What impact would a delayed redeployment of the 
remaining U.S. forces in Iraq have on our logistics and maintenance 
enterprise? Are we poised or such a contingency?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. In April of last year, the GAO identified several 
challenges facing the Department with retrograde of equipment from Iraq 
to include: unclear guidance on what non-standard equipment will be 
transferred to the Government of Iraq; the inability to fully identify 
its need for contracted services; and visibility over its inventory of 
equipment and shipping containers. What steps have you taken to improve 
the retrograde process? What steps have you taken to improve the 
process of transferring excess non-standard equipment to U.S. state and 
local governments?
    General Panter. [The information was not available at the time of 
printing.]
    Mr. Forbes. What steps are being taken to posture the depots for a 
post-reset environment? Are there adjustments to the statutory 
framework that need to be made?
    General Panter. [The information was not available at the time of 
printing.]

    Mr. Forbes. Are there items that need to be removed from 
prepositioned stocks because they no longer meet mission needs?
    General Johnson. [The information was not available at the time of 
printing.]
    Mr. Forbes. What can be done to enhance the Northern Distribution 
Network?
    General Johnson. [The information was not available at the time of 
printing.]
    Mr. Forbes. What impact would a delayed redeployment of the 
remaining U.S. forces in Iraq have on our logistics and maintenance 
enterprise? Are we poised or such a contingency?
    General Johnson. [The information was not available at the time of 
printing.]
    Mr. Forbes. In April of last year, the GAO identified several 
challenges facing the Department with retrograde of equipment from Iraq 
to include: unclear guidance on what non-standard equipment will be 
transferred to the Government of Iraq; the inability to fully identify 
its need for contracted services; and visibility over its inventory of 
equipment and shipping containers. What steps have you taken to improve 
the retrograde process? What steps have you taken to improve the 
process of transferring excess non-standard equipment to U.S. state and 
local governments?
    General Johnson. [The information was not available at the time of 
printing.]
    Mr. Forbes. What steps are being taken to posture the depots for a 
post-reset environment? Are there adjustments to the statutory 
framework that need to be made?
    General Johnson. [The information was not available at the time of 
printing.]

    Mr. Forbes. How is DLA supporting the Services and are you properly 
equipped to meet their logistical needs? If not, where are some of the 
shortfalls?
    General Collyar. [The information was not available at the time of 
printing.]
    Mr. Forbes. What are the top challenges associated with our supply 
chain? What is DLA doing to address these challenges?
    General Collyar. [The information was not available at the time of 
printing.]
    Mr. Forbes. What can be done to enhance the Northern Distribution 
Network?
    General Collyar. [The information was not available at the time of 
printing.]
    Mr. Forbes. What impact would a delayed redeployment of the 
remaining U.S. forces in Iraq have on our logistics and maintenance 
enterprise? Are we poised or such a contingency?
    General Collyar. [The information was not available at the time of 
printing.]
    Mr. Forbes. In April of last year, the GAO identified several 
challenges facing the Department with retrograde of equipment from Iraq 
to include: unclear guidance on what non-standard equipment will be 
transferred to the Government of Iraq; the inability to fully identify 
its need for contracted services; and visibility over its inventory of 
equipment and shipping containers. What steps have you taken to improve 
the retrograde process? What steps have you taken to improve the 
process of transferring excess non-standard equipment to U.S. state and 
local governments?
    General Collyar. [The information was not available at the time of 
printing.]
    Mr. Forbes. What steps are being taken to posture the depots for a 
post-reset environment? Are there adjustments to the statutory 
framework that need to be made?
    General Collyar. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
